<html>
<title> - THE HUMANITARIAN CRISIS IN YEMEN: ADDRESSING CURRENT POLITICAL AND HUMANITARIAN CHALLENGES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
         THE HUMANITARIAN CRISIS IN YEMEN: ADDRESSING CURRENT 
                 POLITICAL AND HUMANITARIAN CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

                            Serial No. 116-9

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-368PDF             WASHINGTON : 2019                      
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     
                                      
                                     

                    Jason Steinbaum, Staff Director

               Brendon Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas

                      Casey Kustin, Staff Director
                      
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rand, Dr. Dafna, Vice President for Policy and Research, Mercy 
  Corps..........................................................     7
Almutawakel. Ms. Radhya, Co-Founder and Chairperson, Mwatana for 
  Human Rights...................................................    14
Konyndyk, Mr. Jeremy, Senior Policy Fellow, Center for Global 
  Development....................................................    20
Zimmerman, Ms. Katherine, Research Fellow, American Enterprise 
  Institute......................................................    34

                                APPENDIX

Hearing Notice...................................................    61
Hearing Minutes..................................................    62
Hearing Attendance...............................................    63

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Representative Gerald 
  Connolly.......................................................    64

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Representative Steve 
  Watkins........................................................    65


                   THE HUMANITARIAN CRISIS IN YEMEN:



        ADDRESSING CURRENT POLITICAL AND HUMANITARIAN CHALLENGES

                        Wednesday, March 6, 2019

                       House of Representatives,

                    Subcommittee on the Middle East,

               North Africa, and International Terrorism,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
Room 2172, Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. This hearing, titled ``The Humanitarian Crisis 
in Yemen,'' will examine current political and humanitarian 
challenges in Yemen and how the U.S. Congress can address them.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation of the rules. I will now make 
an opening statement and then turn it over to the ranking 
member for his opening statement.
    I want to thank our esteemed panel for being here today. I 
would like to particularly thank Ms. Radhya Almutawakel for 
joining us today. She and her organization, Mwatana for Human 
Rights, bravely advocate for justice, accountability, and human 
rights in Yemen. We are so honored by your presence today. 
Thank you very much. Having your voice on this panel to help us 
better understand both the situation on the ground and the 
plight of the people of Yemen will help us make better and more 
informed, well-informed decisions. We really are grateful.
    In September 2014, Houthi rebels attacked the Yemeni 
capital of Sana'a and forced the internationally recognized 
government of President Hadi to flee. In March 2015, in 
response, the military coalition led by Saudi Arabia and the 
United Arab Emirates launched devastating airstrikes in Yemen 
and partnered with local forces to reclaim territory from the 
Houthis. The Saudis and Emiratis remain preoccupied with their 
military campaign in Yemen, which they view as directly related 
to their national security, and I share their concern that Iran 
is providing training as well as military and logistical 
support to the Houthis. This assistance has allowed the Houthis 
to attack international shipping, including an American naval 
vessel, in the Red Sea and the Gulf of Aden. It also prepared 
the Houthis to launch attacks on territory in both Saudi Arabia 
and the UAE, where approximately 130,000 Americans live.
    U.S. relationships with these States are enduring and date 
to the end of the Second World War. I believe these 
partnerships are vital to stability in the Middle East. The 
United States is correct to support these countries' legitimate 
right to self-defense. However, we cannot avoid the fact that 
the war has directly caused tens of thousands of civilian 
deaths in Yemen. The United Nations has verified more than 
18,000 civilian casualties since March 2015, although the 
actual number is likely much higher. The total does not include 
the tens of thousands of additional Yemenis who have died from 
nonmilitary causes, such as disease and hunger, that are 
worsened by the conflict.
    Last year's National Defense Authorization Act, the NDAA, 
required the Trump administration to certify to Congress that 
Saudi Arabia and the UAE are taking demonstrable actions to 
reduce harm to civilians and damage to civilian infrastructure 
in Yemen. However, the administration brazenly ignored the 
February 9th certification deadline. The administration 
continues to refuse to certify, ignoring a law supported by 
both Republicans and Democrats.
    Even worse, the military conflict has exacerbated a 
devastating humanitarian crisis in Yemen that began in 2011. 
According to the United Nations, the crisis in Yemen is the 
worst humanitarian situation in the world. Approximately 3.3 
million people remain displaced, and an estimated 24 million 
people, nearly 80 percent of the population, require assistance 
and protection. More than 20 million people in Yemen are food 
insecure with 5 million--5 million--people on the brink of 
famine. More than 17.8 million lack access to safe water and 
sanitation, and 19.7 million lack access to adequate 
healthcare. Because of the conflict, poor sanitation and 
waterborne diseases, like cholera, are widespread. The World 
Health Organization estimates that more than 1.1 million people 
in Yemen have cholera and that thousands have already died from 
the disease.
    A lack of humanitarian access in Yemen aggravates these 
extreme conditions, putting millions at risk of starvation, 
disease, and death. In response, the United Nations has 
contributed nearly $700 million in humanitarian aid since 
Fiscal Year 2018. In late November, another $131 million in 
food assistance was announced. The Saudis and Emiratis have 
provided billions of dollars in assistance, but billions of 
dollars are meaningless if the goods cannot reach those in 
need, if there is no cold storage for food, if there is no cash 
available to buy food in places where there might actually be 
food. Money is not going to solve the crisis. Only a political 
solution will end the war in Yemen and begin to relieve the 
suffering of its people.
    Like most Americans, I am deeply troubled by this crisis. 
That is why I cosponsored and voted for H.J. Res. 37, a 
resolution that requires the removal of U.S. Forces from the 
Saudi-led military campaign in Yemen. I supported the 
resolution because I believe there is no military solution to 
this situation. We cannot allow American resources to 
contribute to or, worse, be complicit in the suffering created 
by this conflict.
    Furthermore, with this resolution, Congress is finally 
engaging in a thoughtful and nuanced debate on our role in 
foreign policy decisions and the constitutional limits of 
Presidential authority to participate in military action abroad 
without congressional consent. Congress has an important 
oversight responsibility when it comes to the use of military 
force, and we are appropriately reasserting ourselves in these 
decisions. This afternoon, I hope our witnesses can provide 
insight into the political situation and humanitarian 
challenges in Yemen. I also look forward to hearing how the 
U.S. Government, specifically Congress, can take steps to 
increase humanitarian access and stem the spread of disease, 
displacement, and famine. And, finally, I hope the witnesses 
will outline how the United States can support diplomatic 
efforts to reach a lasting political solution, which is the 
best way to secure U.S. national interests, end the suffering 
of Yemen's people, and provide the country with a brighter 
future. I now turn for the first time in the subcommittee 
proudly to the ranking member for his opening statement.
    Mr. Wilson. Chairman, thank you.
    Mr. Chairman and Chairman Deutch, first of all, I want to 
congratulate you on assuming the chairmanship of this important 
subcommittee. Your leadership on U.S. policy issues in the 
Middle East is well known, and I look forward to working 
closely with you and your staff in moving forward.
    Second, I would like to thank you for calling this 
important hearing. Now, ongoing conflict in Yemen has produced 
the most devastating humanitarian catastrophe in the world. To 
reaffirm the chairman's statistics, our concerns are 
bipartisan. Close to 80 percent of Yemen's population of nearly 
30 million people are currently in need of some form of 
assistance. That is a staggering 22 million people. Sixteen 
million Yemenis lack access to drinking water and sanitation. 
Another 16 million are classified as severely food insecure. 
Unfortunately, children have borne the brunt of this 
humanitarian nightmare. The regional director of the United 
Nations International Children's Emergency Fund, UNICEF, 
remarked just last week that, quote, ``today Yemen is the worst 
place on Earth for a child'', end of quote. Nearly 85,000 
children have died from severe acute malnutrition between 2015 
and the end of last year. About 360,000 children are suffering 
from acute malnutrition with life-threatening consequences. 
Cholera has resurfaced in Yemen with roughly 10,000 suspected 
cases now reported per week, according to the World Health 
Organization. Tragically, children account for 30 percent of 
the infections.
    Amid the conflict and humanitarian crisis, Yemen's economy 
continues to unravel. The exchange rate is around 600 Yemeni 
rials to the U.S. dollar. As the economy's situation gets 
increasingly worse, the price of food for Yemenis rises, 
exacerbating the situation on the ground. We are optimistic 
that the U.N.-brokered Stockholm agreement signed in December 
2018 could alleviate some of the humanitarian concerns, but 
little progress has been achieved since the parties met in 
Sweden, and violations of the agreement and resulting cease-
fire continue unabated. I am saddened by reports that the 
Iranian-backed Houthi rebels have been targeting and detaining 
humanitarian workers in the country. International aid is a 
lifeline to millions of Yemenis, and humanitarian workers 
should have unhindered and unimpeded access to civilians in war 
zones. Everyone should condemn harassment and intimidation of 
these good people risking their lives to help others. But 
fundamentally, I agree with the U.N. Secretary General 
Guterres' comments last week when he said that we cannot have a 
humanitarian solution to a humanitarian problem. Only a 
comprehensive political solution to the conflict can begin to 
address Yemen's immense problems. Throwing money at the many 
problems Yemen faces will not fix the country.
    I appreciate Chairman Deutch calling this hearing and 
shedding some light on the tragic humanitarian conditions on 
the ground currently in Yemen. Too often we focus exclusively 
on our Nation's more direct security concerns, whether it be 
al-Qaeda's local branch or the increasing influence of Iran. 
The truth, however, is that the humanitarian crisis in Yemen is 
laying the groundwork for future decades of instability in the 
country that will be inevitably a breeding ground for 
terrorists to attack the United States. This is a long-term 
threat to our national security interest and must be addressed. 
Thank you, Mr. Chairman, and I look forward to hearing from our 
esteemed witnesses. I yield back my time.
    Mr. Deutch. I thank the ranking member, Mr. Wilson. And I 
would ask if any other members, Mr. Malinowski, would like to 
make a 1 minute opening statement. No. Seeing none, I would 
like to introduce the witnesses.
    Dr. Dafna Rand is vice president for policy and research at 
Mercy Corps. Prior to joining Mercy Corps, Dr. Rand held a 
number of leadership positions in government and academia, most 
recently as the Deputy Assistant Secretary, Bureau of 
Democracy, Human Rights, and Labor at U.S. Department of State.
    Mr. Malinowski, do you have anything to add to that 
introduction?
    Mr. Malinowski. And served ably as my Deputy Assistant 
Secretary of State for Middle East Affairs when I had the honor 
to work with her at the State Department.
    And this will not protect you from tough questions today.
    Mr. Deutch. Thanks.
    Also joining us is Radhya Almutawakel. She is chair of 
Mwatana for Human Rights, a Yemeni human rights organization. 
Again, we are so grateful for your presence here on the panel 
with us today.
    Jeremy Konyndyk is a senior policy fellow at the Center for 
Global Development. He previously served in the Obama 
Administration from 2013 to 2017 as the Director of USAID's 
Office of U.S. Foreign Disaster Assistance where he led the 
U.S. Government's response to international disasters.
    And Katherine Zimmerman is a research fellow at the 
American Enterprise Institute.
    To all of our distinguished witnesses, I ask that you limit 
your testimony to 5 minutes.
    And, without objection, your prepared written statements 
will be made a part of the record.
    I thank you again so much for being here with us today.
    And, Dr. Rand, I will turn it over to you.

 STATEMENT OF DAFNA RAND, PH.D., VICE PRESIDENT FOR POLICY AND 
                     RESEARCH, MERCY CORPS

    Dr. Rand. Thank you. Thank you, Chairman Deutch, Ranking 
Member Wilson, members of this committee. I am really honored 
to testify, especially with this expert group of witnesses. In 
addition to my written statement, I would like to make four 
additional points quickly.
    First, I would like to analyze a bit the humanitarian 
tragedy that you have both described so ably. It is clear that 
institutional and governance solutions are the longer term 
complement to the current humanitarian relief operations. There 
is food in the marketplace but no money in the household to buy 
it. Forty percent of the hospitals are closed or shuttered in 
Yemen or have been targeted by airstrikes while 1.2 million 
people have contracted cholera. Both the public and private 
sectors have been politicized and, in some cases, weaponized 
with no social safety net, massive inflation, and no regulation 
on the remaining formal private sector.
    The second nuance to the humanitarian situation: We have 
heard about the predominant strikes on weddings, funerals, and 
school buses, but there also have been strike upon strike on 
potato chip factories, agricultural infrastructure, water 
treatment centers, and electric grids. No party to the conflict 
is innocent. And the bottom line is this: In Yemen, the 
military conduct of State and non-State actors has downgraded 
international norms of warfare, expectations for how security 
actors treat civilians, expectations that have held for 
decades, and I worry that the damage to these international 
norms will extend far beyond the Arabian Peninsula.
    The second point is that we are at an inflection moment. 
There have been recent agreements regarding de-escalation led 
by the U.N. special envoy. They have focused rightly on 
Hudaydah Port and City, through which so much of the 
humanitarian operations transit. And the United States 
congressional action of last year, your oversight, your 
legislative activity, your floor statements, these were 
instrumental in 2018 in creating this diplomatic opportunity. 
Congressional pressure on this administration dragged the 
parties to Stockholm, I believe. And although they are limited 
agreements, negotiated by the United Nations, they have the 
potential to shift the dynamic. For the first time, Congress 
has questioned the assumption and the assumed logic that only 
escalation will achieve the end goals of the coalition, the 
Government of Yemen, or the Houthis.
    The third point is that, buoyed by recent evidence that 
your voice matters, Congress should continue signaling 
privately and publicly that there will be consequences for 
failing to follow through on the Stockholm agreements. In 
Yemen, like in so many other places, when Congress speaks 
united with one voice, you are echoing the conscience as well 
as the common sense of the global community. So Congress must 
continue to publicly and privately support the U.N. Special 
Envoy process, pushing through to follow through on the current 
commitments and demand additional de-escalation; call on the 
parties directly to empower and improve the functioning of the 
Central Bank of Yemen in order to control the currency crisis; 
tell the Government of Yemen and the Houthis to pay the public 
sector employees, the doctors and the teachers, before the 
militias; tell the Government of Yemen and the UAE to finally 
cut through that backlog at the Aden Port so that humanitarian 
shipments can offload there; tell the Saudis to allow flights 
out of the Sana'a airport at least for medical treatment and 
other basic needs; and, finally and perhaps most fundamentally, 
call out publicly when U.S. partners and all parties commit 
human rights abuses in their military operations, whether these 
abuses are through interrogation or torture, through unlawful 
airstrikes, or through any other means.
    And, finally, the United States must definitively and 
completely end its support for the coalition. This is a 4-year 
policy that has failed. It has incurred significant cost to the 
United States, generating greater instability and potential new 
rounds of terrorism in the Arabian Peninsula, offering Iran a 
broad and chaotic civil conflict to exploit and manipulate. 
U.S. support for this coalition has had significant moral costs 
for the United States and for U.S. global leadership worldwide. 
Congress must ensure that the Trump administration extricates 
itself from this war. This means legislating a formal end to 
DOD operations, including the refueling. This means signaling 
through oversight that the new focus of U.S. power will be on 
diplomatic opportunities that have arisen, and this means 
blocking all future offensive arms sales that could be used in 
the war in Yemen.
    Finally and in conclusion, I urge this committee and 
Members of Congress to learn from this failed policy approach 
of 4 years. There is a dangerous trap lurking when the United 
States offers a blank check in the form of a security 
assistance to partners who whose values and interests can 
diverge from ours. Thank you very much, and I look forward to 
your questions.
    [The prepared statement of Dr. Rand follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    
    Mr. Deutch. Thank you very much, Dr. Rand.
    Ms. Almutawakel, thank you again for being with us.

 STATEMENT OF RADHYA ALMUTAWAKEL, CO-FOUNDER AND CHAIRPERSON, 
                    MWATANA FOR HUMAN RIGHTS

    Ms. Almutawakel. Thank you. Chairman Deutch, Ranking Member 
Wilson, subcommittee members, thank you for the opportunity to 
speak to you today. I will summarize my written statement, 
which I submit for the record.
    Mwatana for Human Rights documents violations by all sides 
in Yemen. It is a dangerous job, but our 70 staff, men and 
women, know that for humanity to be preserved, the brave must 
stand up in the face of abuses.
    Today I urge Congress to do the same. Congress has the 
power to change the face of millions of Yemeni civilians but 
must choose to do so. Twenty-four million Yemenis need 
humanitarian aid, more people than live in Florida. Ten million 
are on the brink of famine, twice South Carolina's population.
    It is a manmade crisis. Yemenis are not starving. They are 
being starved. The humanitarian crisis cannot be addressed 
without addressing the human rights situation.
    The war in Yemen is not some distant tragedy with no 
connection to America. Since 2015, the U.S. has supported Saudi 
and Emirati attacks on Yemeni civilians by selling billions in 
bombs and other weapons and providing military and political 
support. After 4 years of war, Yemenis are losing hope for a 
country based on rule of law. Most now live under de facto 
control of extremist groups. On the one hand, the Houthis, who 
are supported by Iran and commit terrible abuses, such as 
indiscriminate attacks, disappearances, and land mines; on the 
other hand, armed groups loyal to the Hadi government and 
Saudi-Emirati coalition who also commit horrible violations. 
All these armed groups act with impunity because they think no 
one will stand up in the face of their abuses, but neither does 
Saudi-Emirati coalition.
    When CNN recently showed U.S. weapons sold to Saudi Arabia 
and United Arab Emirates in the hands of extremist armed 
groups, Congress was right to be angry at this business, but 
you should not have been surprised because, since 2015, the 
Saudi-Emirati coalition have used U.S. weapons recklessly to 
kill and maim Yemeni civilians. Mwatana has documented hundreds 
of attacks, killing and maiming thousands of civilians, and 
destroying key infrastructure. We found U.S. bomb remnants at 
dozens of these airstrikes. Many are likely war crimes. Every 
single one destroyed innocent lives.
    The 2016 Saudi bombing of a Sana'a funeral using U.S. 
Munitions, killing and maiming hundreds, should have been a 
turning point. Congress should have stopped arms sales until 
unlawful attacks ended and war criminals were held accountable. 
And instead, the U.S. accepted Saudi and Emirati promises to 
end violations and investigate. Two years later, there has been 
no accountability, and airstrikes on Yemeni civilians continue.
    Yemen cannot survive another 4 years. In the short time I 
have been talking to you, another child has died because of 
war-inflicted wounds, starvation, or disease. Congress has the 
power to change this, to stop this.
    Attention to Yemen increased after the outrageous Khashoggi 
murder. The Stockholm talks showed that the international 
community can push to end the war, but this tentative progress 
needs sustained global pressure including from Congress. Your 
recent votes on Yemen drew the parties to take small steps 
toward peace. By ending U.S. arms sales and military support to 
Saudi Arabia and the United Arab Emirates, Congress can stop 
American allies from using American weapons to kill Yemeni 
civilians with impunity. This would be a significant step 
toward accountability and an end to the war.
    This month, America pledged millions in humanitarian aid 
for Yemen, but if U.S. arms sales to Saudi Arabia and United 
Arab Emirates continue, American bombs might reach Yemeni 
civilians before American aid will. Peace in Yemen is very 
possible, but to achieve it, Congress must act. Thank you.
    [The prepared statement of Ms. Almutawakel follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Deutch. Thank you very much.
    Mr. Konyndyk.

STATEMENT OF JEREMY KONYNDYK, SENIOR POLICY FELLOW, CENTER FOR 
                       GLOBAL DEVELOPMENT

    Mr. Konyndyk. Thank you, Chairman Deutch, Ranking Member 
Wilson, and distinguished members of the panel. Thank you for 
the opportunity to testify before you today. When this crisis 
began in 2015, I served as the Director for Foreign Disaster 
Assistance at USAID, and in that capacity, I oversaw U.S. 
Government humanitarian aid to Yemen for several years, and I 
also participated actively in U.S. policymaking on the crisis. 
Since leaving government, I have tracked the crisis closely in 
my new position at the Center for Global Development.
    Yemen is the world's worst humanitarian catastrophe, and it 
is worsening rapidly. Humanitarian relief operations there are 
robust, and they are growing, but aid alone cannot offset State 
collapse. As you mentioned in your own opening remarks, 20 
million people are hungry; 7.4 million are malnourished. At 
least 238,000 live in areas affected by famine-level 
conditions. Health and water systems have imploded. Twenty 
million people lack access to adequate healthcare. Cholera is 
present. Diphtheria is present. Millions have been forced to 
flee their homes.
    All parties to this conflict are culpable, but that 
culpability is not evenly distributed. Any fair assessment must 
assign predominant responsibility to the Saudi and Emirati-led 
coalition. To be clear, the Houthis are a part of the problem 
and bear special responsibility for having instigated the 
conflict. They have blocked and sought to manipulate relief 
operations. They have harassed humanitarian personnel and 
committed a litany of other human rights violations. The 
Houthis are not angels or good guys by any stretch of the 
imagination. But while both sides have impeded humanitarian 
response to the emergency, it is Saudi and Emirati behavior 
that has been the engine of the emergency. This is because the 
crisis flows from the collapse of Yemen's economy and its 
infrastructure, and that has been a direct and seemingly 
intentional consequence of the coalition's political and 
military strategy. Their airstrikes have repeatedly and 
intentionally targeted Yemen's critical infrastructure, 
directly fostering both Yemen's massive cholera outbreak and 
its creeping famine. Examples of this include strikes on major 
ports and roads vital to humanitarian relief and movements, 
including roads and other facilities that the U.S. Government 
has specifically asked them not to strike, more than 100 
attacks on water and electrical facilities, more than 70 
attacks on medical facilities, and concerted targeting of food 
production and commerce, including nearly 600 attacks on farms 
and 200 attacks on marketplaces. They have also struck 
weddings, funerals, a packed school bus, and countless other 
targets with no plausible military purpose. This is not the 
behavior of a campaign that is seeking to minimize civilian 
harm. The Saudis and Emiratis have simultaneously pursued a 
policy of economic punishment. Their naval blockade and flight 
restrictions have disrupted supplies of food, fuel, and other 
essential goods. The shift of the Yemeni Central Bank out of 
Houthi-controlled territory has been a fiasco, depriving huge 
numbers of Yemenis of their wages and dramatically weakening 
the currency.
    For 4 years, the U.S. has treated this kind of reckless 
behavior as a problem of weak systems rather than maligned 
intent. U.S. officials argue to this day that U.S. military 
cooperation is a moderating factor. It is time to end this 
delusion. Saudi Arabia and the UAE have continued to drop U.S.-
supplied bombs out of U.S.-refueled planes flown by U.S.-
trained pilots onto innocent civilians. If this is due to 
coalition military incompetence, then years of U.S. Engagement 
and support have delivered no improvement whereas if this 
targeting is intentional, then these same U.S. efforts are 
arguably enabling war crimes. Either way, the Saudis and 
Emiratis have shown willful disregard for the laws of war and 
have manifestly failed to demonstrably reduce civilian harm as 
Congress demanded rightly last year. U.S. involvement in this 
confers on us a degree of culpability, but it also gives us 
unique leverage to change coalition behavior.
    And one clear takeaway from the last 4 years is that when 
it comes to moderating Saudi and Emirati behavior, pressure 
delivers while quiet engagement does not. To that end, I make 
three recommendations: First, the U.S. should halt all military 
assistance, including ongoing arm sales and maintenance that 
supports offensive military operations in Yemen. This is 
important leverage, and we should use it.
    Second, the U.S. should put this leverage toward a 
concerted diplomatic surge. Recent U.S. actions shielding the 
coalition from Security Council criticism or giving them a pass 
on Congress' civilian targeting concerns have undermined U.S. 
goals of halting the fighting and bringing the parties to the 
table. The U.S. should instead make clear that sustaining the 
conflict will deal long-term damage to U.S.-Saudi and U.S.-
Emirati bilateral relationships. Two immediate confidence-
building measures would be to negotiate humanitarian access to 
besieged Taiz and to restore neutrality and functionality to 
the Central Bank and restart salary payments.
    Finally, the U.S. should pull out all the stops to protect 
the Hudaydah cease-fire. A major battle for Hudaydah would 
devastate the food import lifelines on which most of Yemen 
depends. The U.S. should make clear to the Saudis and Emirates 
that this is a red line.
    There is much that Congress can do to shape policy in these 
areas, and I look forward to your questions. Thank you.
    [The prepared statement of Mr. Konyndyk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Deutch. Thank you, Mr. Konyndyk.
    Ms. Zimmerman.

  STATEMENT OF KATHERINE ZIMMERMAN, RESEARCH FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Ms. Zimmerman. Chairman Deutch, Ranking Member Wilson, 
members of the subcommittee, thank you for your attention to 
this issue and the opportunity to participate in this hearing. 
America has vital national security interests in Yemen, 
defeating al-Qaeda and the Islamic state, reducing Iran's 
ability to threaten allies in the Bab-el-Mandeb Strait, and 
addressing the deepening humanitarian catastrophe. The U.S. 
must develop a policy that pursues all of these interests. 
Above all, America must lead in securing itself and shaping 
allies and actions to support American interests in accord with 
international laws and norms. The U.S. must help our partners 
develop strategies to resolve the underlying conflicts that 
permit both al-Qaeda and Iran to operate in Yemen rather than 
partial and limited approaches that exacerbate those conflicts. 
The U.S. must also engage diplomatically not only with the 
recognized Yemeni Government and the United Nations-led peace 
process but also with sub-State actors whose views will 
ultimately determine the durability of any settlement.
    The U.S. bears some responsibility for the conditions in 
Yemen. The Obama Administration subcontracted Yemen to Gulf 
partners while pursuing the Iranian nuclear deal. The Trump 
administration has continued this approach for fear of becoming 
entangled in Yemen's complexities. American efforts to stay out 
of the Yemeni mire have helped make the situation worse and 
reduced the likelihood that our vital national security 
interests will be secured.
    Yemen's complexities make finding a solution seem 
impossible. Trying to simplify it by focusing on one of 
America's interests to avoid dealing with local conflicts will 
lead to failure across the board. A U.S. strategy to secure its 
interests requires dealing with the problem in all of its 
complexity and abandoning the search for simplistic, short-
term, feel-good solutions. If relying on Gulf partners has been 
counterproductive, abandoning them would be disastrous. They 
are unlikely to find their way out of this war on their own and 
will continue it without us.
    Although limited, American influence has shaped both Saudi 
and Emirati actions for the better. The U.S. could do even more 
to shape their behavior if engaged more seriously in the 
effort. War in Yemen has acquired a momentum that will not 
easily be stopped. The U.S. must recognize the importance and 
interest of sub-State actors who benefit from continued 
conflict and engage them directly and through partners to shape 
conditions for enduring peace. U.S. policy must recognize that 
the U.N.-led effort to resolve the current political crisis may 
not succeed and will not address the conditions that drove 
Yemenis to war in the first place. Any elite settlement does 
not resolve the sub-State actor conflicts which allow al-Qaeda 
and Iran to persist, and there is also a gap between what the 
Houthis and the Saudis will accept in terms of the Houthi 
representation in the final government.
    Persuading the Houthis that they will ultimately lose 
requires a more skillful and nuanced strategy than the 
coalition has been pursuing along with much more serious and 
energetic diplomatic engagements with the United States and 
extra regional partners.
    The Salafi jihadi movement in Yemen has transformed in the 
context of the war. It has decentralized in such a way that 
defeating al-Qaeda and the Islamic state will not eliminate the 
threat. Additional Salafi jihadi groups have established 
themselves and exist independent of al-Qaeda support. The 
current U.S. counterterrorism strategy does not address this 
transformation. The UAE has been a critical enabler for 
counterterrorism successes in Yemen, but its efforts are 
unlikely to yield permanent success. The risk that 
counterterrorism gains will be reversed is high unless the U.S. 
helps shape Emirati operations and nests the counterterrorism 
effort into a larger effort to resolve the underlying drivers. 
The U.S. should leverage its continued support to this end.
    The threat from the al Houthi movement is unacceptable, and 
it has grown largely through Iranian support. Iran and Lebanese 
Hezbollah have transferred asymmetrical attack capabilities 
that threaten maritime security and U.S. Gulf partners. No 
clear incentives exist for Iran to stop supporting the Houthis 
and for the al Houthis to stop receiving Iranian support, but 
the Houthis are not Iranian proxies. They are not in the same 
category as Lebanese Hezbollah, and Yemen is a defensive front 
for the U.S. in the struggle against Iranian regional maligned 
behavior. Pressure on the Houthis does not harm Iran enough.
    The humanitarian situation in Yemen has sharply declined 
over the course of the war, but any emergency humanitarian 
situation solution without a political settlement will not be 
enduring. Long-term international engagement to improve Yemen's 
weak State institutions and economy will be required for any 
lasting effect, and low-level conflict will be disruptive. The 
Trump administration and Congress must prioritize securing a 
political resolution in Yemen.
    A first step is for the U.S. to rebuild trust with Yemeni 
power brokers not close to Riyadh. We might consider moving our 
embassy to into a country other than Saudi Arabia. We must also 
persuade our partners away from practices that exacerbate the 
humanitarian crisis, but neither should we defend their 
practices. We should chastise them publicly when they do wrong 
and make it clear that our support is conditional. The time to 
end it has not yet come because we have not yet put enough 
energy into shaping their actions and giving them a strategy 
and a way out. America must regain a position of leadership in 
shaping the coalition's strategies and our own interests inside 
of Yemen. Real success might not be possible, but it is vital. 
Thank you for the opportunity to testify.
    [The prepared statement of Ms. Zimmerman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

        
    Mr. Deutch. Thank you very much, Ms. Zimmerman.
    I will begin the questioning.
    There is consensus on the panel that political settlement 
is what we must be striving for. In December, Martin Griffiths 
brokered a cease-fire and the Stockholm agreement between the 
warring parties. What role should the United States play in 
diplomacy? How can Congress support those diplomatic efforts 
springing out of there?
    Dr. Rand, I will start with you.
    Dr. Rand. Thanks. The U.S. diplomatic efforts have been 
behind the scenes, and they have been a bit timid. It is 
important at this stage that the U.S. State Department step up 
and both publicly and privately show U.S. leadership and 
resolve, elevating this issue. It has been great the U.S. 
Special Envoy has taken the lead and has been quite successful, 
but there has been too little effort from Washington to show 
how important this is to the U.S. Government. So I would urge 
greater public and private diplomacy from the U.S. side.
    Mr. Deutch. Ms. Almutawakel, how do the Yemeni people view 
American involvement in the war?
    Ms. Almutawakel. When we say ``parties to the conflict,'' 
Yemenis consider America as one of the parties to the conflict 
in a very negative way.
    Mr. Deutch. Were they aware of the House's recent passage 
of the War Powers Resolution?
    Ms. Almutawakel. Whatever happens, although they--Yemenis, 
they have a lot of anger toward America for many reasons. But 
whenever there is something happening in America, they follow 
it with a lot of interest because they know what is happening 
here has a lot of influence in Yemen.
    And for your first question, let me tell you that the peace 
talk in Sweden, why have it happened? It happened only because 
of the pressure that happened because of the Khashoggi murder. 
So the international community pressure, especially from the 
U.S., in 2 months succeeded to send parties to the conflict to 
the table. So, if the pressure continues, it should be a 
balanced pressure on all parties to the conflict. If this 
pressure continues, then the peace talks will just continue, 
and Martin should be supported to be successful in this.
    Mr. Deutch. Can I just ask? The work that you do at Mwatana 
for Human Rights, we have heard a lot of--there a lot of 
harrowing statistics that have been thrown around. The numbers 
are so staggering, but given the data that you collect, can you 
personalize it for us? Make this, the humanitarian crisis, the 
abuses that you have seen, can you give it some context from 
the work that you do through your organization?
    Ms. Almutawakel. So, in our work, we work on the details, 
not in the numbers. So we go deep--we just try to move the 
numbers to details of the suffering of people with just 
documentation that can be even a legal paper for the future. We 
build a human rights memory. So it is a lot, yes. We are 
documenting a lot of incidents daily. But I will just mention 
one of the incidents that was in our late report regarding 
using U.S. and U.K. Weapons in some of the airstrikes. There 
was an airstrike in 2018, in April 2018. It was a wedding in 
Hajjah, in a very poor area. Most of the people who died in 
this wedding were the drummers and dancers, and people, they 
said it was just a very happy day that ended like a judgment 
day. And those people are marginalized.
    This picture is not even unique. It is happening. So the 
bus incident is famous, but it is not the only one. The funeral 
incident in Sana'a is famous, but it is not the only one. It is 
not new in Yemen. It is not even strange to sleep as a whole 
family and then to get up in the morning, one person, and all 
your family is dead. This is only because of the airstrikes, 
but airstrike is not the only attacks in Yemen, the only 
violation in Yemen. It is just only one.
    What has really broke the back of Yemenis is the 
starvation. It is not having their salaries. And many Yemenis 
will not go to ask for humanitarian aid because the middle 
class, they are now very poor. And they are dying behind the 
closed doors. That is why humanitarian aid is just an emergency 
that helps a lot but will never solve the situation in Yemen. 
We miss the feeling safe. We are safe in Yemen by accident, not 
because we are protected by anything. We miss the feel of being 
safe and sleeping while we are sure that, in the morning, all 
the people we love is going to be safe. Whatever I say, there 
is just more.
    Mr. Deutch. I appreciate that very much. Thank you. Thank 
you so much.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank all of you 
for being here today.
    Ms. Zimmerman, given that Iran has not been a party to any 
of the negotiations or diplomatic initiatives surrounding the 
conflict, do you assess that Iran has had any incentive to 
encourage the Houthi rebels to meaningfully come to the 
negotiating table? If not, how do we incentivize Iran as the 
major outside supporter of the Houthis to support a peaceful 
solution to the conflict, including stopping the missile 
attacks from Yemen on Saudi Arabia?
    Ms. Zimmerman. The issue of whether Iran supports the 
Houthis going to the negotiating table or not is a little bit 
moot because Iran does not pull the strings in Yemen. It does 
not make the decisions for the Houthi family. There are 
instances where Foreign Minister Javad Zarif has met with 
Houthis during negotiations, so there are clearly conversations 
happening back door and Iranian advice going forward with the 
Houthi delegation and negotiating team, but it is not going to 
be Iranian pressure on the Houthis that changes their actions. 
They have actually ignored it before, and so I think that is 
not the vector for changing the Houthi behavior. This is where 
the nuance in what I put forward is actually putting forward a 
strategy that would convince the Houthis that ultimately they 
will lose the majority position they hold in Sana'a. That will 
bring them to the table, and they are there. They just disagree 
with the Saudis over how much of a share in the government they 
should hold.
    Mr. Wilson. Well, thank you very much.
    Ms. Almutawakel, thank you for your courage to be here, and 
a question for you, but Mr. Konyndyk can add, too, because I am 
a big fan of USAID, and so it relates to aid. And that is 
multiple reports earlier this year indicated the Houthi rebels 
were engaging in wholesale food aid diversion to key areas they 
control. How big a problem is this, the Houthi aid diversion? 
Have the Houthis used the aid diversion to finance their 
operations in the past? What is the international aid community 
doing to mitigate this type of phenomenon?
    Ms. Almutawakel. So it is me, yes?
    Mr. Wilson. Yes.
    Ms. Almutawakel. Yes. OK. It is big. It is very big. We 
documented many cases where Houthis just obstructed 
humanitarian access for food and medicine, and also they are 
bothering humanitarian NGO's on the ground, and humanitarian 
NGO's cannot talk because Houthis might just do anything. They 
just might close the humanitarian NGO's and they do not care. 
So it is very big. But how to solve it? It is only how to stop 
the war because Houthis is just one issue regarding the 
humanitarian access, and the Saudi-led coalition is another 
issue. The other avenues are the third issue. So it is a huge 
problem for all parties to the conflict. But, again, 
humanitarian aid is not the solution in Yemen. It is just a 
lifeline emergency. So, whether we solve it or not, it is not 
going to solve the problem.
    Mr. Konyndyk. Thanks for that question, Congressman, and 
thank you for your support for USAID. I know when I worked 
there, we really felt the support from the Hill, and we really 
appreciated it. I know that they still do.
    It is a problem. The Houthi diversion is a problem. I think 
obstruction by both sides is a problem, and that is important 
to understand, you know. Neither side has their hand clean when 
it comes to obstructing humanitarian aid. They have different 
tactics of it. Obviously, you know, it is the more on kind of 
the entry side with the coalition and then the ground side with 
the Houthis, but both sides have been playing games with and 
obstructing humanitarian aid really from the get-go. My 
understanding of what has happened since that report on the 
concerns about food aid diversion by the World Food Program is 
that, as you all have seen in the news reports, the World Food 
Program put out an ultimatum to the Houthis that this behavior 
needed to change. The Houthis have begun engaging with WFP in 
dialog and have begun changing some of their practices that had 
caused so much concern. I would not say it is completely 
resolved or perfect, but there is at least, as I understand it, 
a constructive dialog going on to address the underlying 
problem.
    Mr. Wilson. Well, you make a difference, and we want to 
continue that.
    And Dr. Rand, what is the current status of the Stockholm 
agreement and cease-fire?
    Dr. Rand. Unfortunately, Congressman, as of this morning or 
yesterday, Martin Griffiths, the esteemed and excellent U.N. 
Special Envoy, has said it is on life support. He is really 
trying, and he is disappointed, as we all are, there has not 
been greater commitment by the parties. There has been some 
redeployment. There has been a diminution in the airstrikes in 
the Hudaydah city and port, and that was one of the goals was 
to decrease the fighting in and around the port, so that has 
been sort of the best part of the progress, but there has not 
been so far the full redeployment of the forces out of 
Hudaydah. So there needs to be pressure right now in the next 
week or two to ensure that the parties commit to the agreements 
made in Stockholm.
    Mr. Wilson. Well, thank you for your extraordinarily 
current information. Thank you very much.
    Mr. Deutch. The gentleman yields back.
    Mr. Malinowski will be recognized.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Dr. Rand, excuse me. You and I were both involved in the 
effort to advise the Saudis early in the conflict on how to 
avoid hitting civilians, on how to conduct their operations in 
a way that was more consistent with the laws of war and more 
effective. Could you describe that effort and the lessons that 
you think we should learn from it?
    Dr. Rand. Sure. Thanks. To Katie Zimmerman's point, to your 
great point, that, at the beginning of the war, we at the State 
Department thought that the best approach was to work with our 
partners, work with our allies behind closed doors, to build on 
the strong partnership that the U.S. had with Saudi Arabia. So, 
in 2015, when it was clear that there was these mass casualty 
civilian targets and we assumed that they were mistakes in the 
fog of war that U.S. State Department sent a trainer to Riyadh, 
you know, someone who had worked with CENCOM on trying to limit 
civilian casualties for U.S. coalition operations in 
Afghanistan, thinking that we could train and support the 
coalition using the same models that had successfully reduced 
U.S. civilian casualties in Afghanistan. We approached this 
very technically behind closed doors, very quietly sent our 
trainer in, and he was well received by the Saudi Ministry of 
Defense. We kept on trying this, and we were hopeful in the 
beginning, and we kept on sending him. And then there was a 
cease-fire in 2016, so we remained hopeful that maybe our 
efforts to train the Saudis to limit civilian casualties were 
working.
    But then, in August 2016 when the cease-fire broke down, 
there was a series of mass casualty civilian targets that were 
hit in a span of 2 weeks in that deadly August 2016, and it 
gave us pause to recalibrate the strategy and wonder what had 
happened to our training. Where had been the lessons learned 
that had been taken so receptively by the Saudi Ministry of 
Defense, and so we continued. We continued. We very quietly re-
sent him. We really, really tried. And we came to the 
conclusion by late 2016 that, although there were very many 
well-meaning and good and professional generals in the Saudi 
Ministry of Defense, there was a lack of political will at the 
top, senior levels, to reduce the number of civilian 
casualties. There were many technicians and tacticians who 
wanted to learn the software and the approaches that the U.S. 
military had tried in Afghanistan, but at the end of the day, 
the shots were called from up high, from up above, and there 
was no political will to change the status quo.
    Mr. Malinowski. So was it a problem of imprecise targeting 
or that they were precisely targeting the wrong things?
    Dr. Rand. Right. It was very clear that precision was not 
the issue and that guidedness was not the issue. It was the 
type of target selection that became the clear issue. And even 
when, as Jeremy has mentioned, the U.S. Government told them 
which targets not to hit, we saw instances where the coalition 
was targeting the wrong things.
    Mr. Malinowski. So they deliberately struck targets like 
water treatment facilities, food distribution centers that were 
on a no-fly list, a no-strike list that was handed to them. Is 
that correct?
    Mr. Konyndyk, if you want to chime in as well, or either of 
you, yes.
    Mr. Konyndyk. Yes. So the basic progression was this: 
Initially we provided--USAID compiled the list of initially 
just strictly humanitarian sites, NGO offices, warehouses, 
things that if you, you know, you looked at them from the air, 
you might not be aware it is a humanitarian facility whereas we 
would assume you would know what a school looks like, what a 
hospital looks like, and so on, and not hit those things.
    What we found was that the Saudis tended to treat anything 
not on the no-strike list we gave them as fair game. So then we 
expanded the list, and we began naming categories of sites 
including specific road routes that were critical to the 
humanitarian effort. And in an instance in, I believe it was 
2018, they struck the bridges along the main road from Hudaydah 
Port to Sana'a, which was the principal artery for bringing 
food, aid, and commercial food into the country. They struck 
that despite us having specifically told them through that 
process not to.
    Mr. Malinowski. Thank you.
    And, Ms. Almutawakel, first of all, thank you so much for 
being here and for speaking for people in Yemen whose voices 
are not normally heard in our debate here in the Congress.
    When American bombs reach Yemeni civilians before American 
aid does, as you aptly described the situation, what impact 
does that have on the Houthis and on other extremist groups 
like al-Qaeda? Does it hurt them, or does it help them? Do they 
take advantage of this?
    Ms. Almutawakel. Well, in the war in Yemen in general, the 
war in Yemen is empowering two groups in Yemen: al-Qaeda and 
Iran. The war is a very perfect environment for all armed 
groups and their allies, whoever they are. So only rebuilding 
the State in Yemen can just defeat different groups. For 
Yemenis, many of the Yemenis, they have never been to America, 
but they received America through the weapons--not through 
technology, not through education, not through civilization. It 
is just through weapons.
    And in many instances, we documented 300 incidents since 
the beginning of the war until today, but not in all incidents 
we could find evidence of weapons. We could find this in 25 
incidents, but it might be even much more. So people, they know 
America through these weapons, and they feel very angry about 
it, and it is propaganda for the Houthis and for al-Qaeda, but 
the situation in general does not depend on the propaganda 
itself.
    The war--because the war is--all parties to the conflict, 
they do not have a war plan; they do not have a peace plan. And 
even in the areas that are controlled by Hadi government and 
the coalition, they did not try to rebuild the State, the 
judicial system, the national army. They decided to empower 
fanatic religious armed groups in the ground. So this is also 
empowering Houthis and other armed groups in the areas. If the 
80 percent that was controlled by the coalition and Hadi 
government was administrated in a good way, then this would 
defeat also Houthis easily, much easily than the war itself.
    Mr. Malinowski. Thank you.
    Mr. Deutch. Thank you.
    And I will recognize Mr. Chabot for 5 minutes.
    Mr. Chabot. Thank you very much, Mr. Chairman. As a former 
chair of this subcommittee and a long-time member of it, it is 
really heartbreaking to have the need for this hearing today 
because this is clearly one of the most significant, if not the 
most significant, humanitarian crisis on Earth. And, 
unfortunately, it has been extremely frustrating for those of 
us that are really trying to help and trying to get aid to 
those people who need it and try to get a cease-fire on the 
targeting of civilians or even if it is collateral damage, so 
to speak. That is where you really want to have some impact to 
be able to not have people who are completely innocent 
targeted, or it is always hard, but particularly in this type 
of situation where you do have the fighters oftentimes in 
civilian populations. And then another challenge, of course, 
and I apologize for being in and out. I have had meetings here 
on and off, and so I have I missed and I probably am repeating 
some of the things my colleagues have said. And I know speaking 
for probably folks on both sides of the aisle, the inability to 
get the aid to those who need it, the access, is a big problem, 
so I guess my first question would be how can we improve that? 
What could actually work to get the aid to the people who 
really need it? Is there anything we can do? And I know your 
organization is USAID. I know that is what you all do, but I 
would be happy to just go down the line.
    Doctor?
    Dr. Rand. I would highlight three things. One is the Sana'a 
airport is a very important center because of the number of 
people who cannot leave the country seeking medical help and 
other treatments, so urging the coalition to open the Sana'a 
airport. That would be one.
    Second, continuing to monitor the verification mechanisms 
in the Red Sea Port. Part of the challenge is there are 
legitimate concerns about Iranian and other nefarious missile 
activity in the region, and so the U.N. has tried very hard to 
broker a compromise with the coalition to check ships to see, 
you know, to make sure there are not bad things on some of 
these vessels, but that has really slowed down the humanitarian 
access into the port. So there has to be more that can be done 
to ensure that these ships that are coming in with the 
humanitarian relief are not stopped and blocked because it is 
deterring the commercial shipping industry from coming in at 
all. So there can be more work that can be done with the U.N. 
and the coalition to ensure that this verification mechanism is 
not delaying and stopping humanitarian relief access.
    And then, finally, calling attention to parts of the 
Stockholm agreements that were intended to enable the recovery 
of the Hudaydah and Red Sea Ports along that area. Because of 
the backlogs at the Aden Port, there is no substitute for 
Hudaydah Port, despite the parties' wish that there could be 
run-arounds. It is still true that 70 or 80 percent of all 
humanitarian relief must get into the country through that 
region and that part of Yemen. And so, therefore, ensuring port 
capacity, ensuring the management, the administration, and the 
free flow of goods into that port remains critical.
    Mr. Chabot. Thank you. You know, I am actually--I have only 
got a minute and 30 seconds to go, so I am going to hold your 
thought, if I can, because I had one other point that I wanted 
to make. If I go down the line, I am going to be infringing on 
other people's times. I was in Yemeni some years ago--in Yemen 
a number of years ago, and I remember at the time because we 
got a call. There were only a couple of us on the codel. We got 
there the day after they blew up the graduation of the police, 
or it was about 100 people I think killed on the parade 
grounds. We went in anyway and met with an awful lot of 
goodwilled people, but it was--I remember the date specifically 
because of that.
    Let me ask this question, Ms. Zimmerman. Let me go to you 
on this one. I know Mr. Wilson was interested in this as well. 
The business about human shields, you know. We have heard 
reports that there are examples where that has happened, where 
Houthis have embedded, you know, militant fighters or military 
equipment in civilian areas. Could you address that issue?
    Ms. Zimmerman. Yes. Thank you, Congressman. The Houthis and 
many other of the actors on the ground have used civilian 
positions including the offices of international NGO's as a 
shield against airstrikes or other artillery fire, and there 
are multiple instances where you can map the no-strike list 
against a Houthi military position, and the Houthi military 
position is right adjacent to a civilian position which places 
the coalition in a lot of stress.
    I think the challenge with civilian casualties in Yemen is 
not just limited to targeting from the air, however, and what 
is missed is the mortar fire that is somewhat indiscriminate in 
certain places, some in Taiz City, which gets lost in the 
discussion about Hudaydah because it is not stuck on 
humanitarian issues. All sides are committing egregious 
targeting cases, and I think we need to be holding all actors 
accountable.
    Mr. Chabot. Thank you very much.
    My time has expired.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Trone.
    Mr. Trone. Thank you, Ms. Almutawakel, for your courage and 
efforts in this unmitigated tragedy. Food insecurity, lack of 
sanitation, relocation to the IDP camps, real negative impacts 
on all the citizens of Yemen. My question is: The women and 
girls are specifically disadvantaged in this humanitarian 
crisis and subject to even greater risk, gender-based violence 
during the conflict. Could you make any comments on protections 
that we should be taking?
    Ms. Almutawakel. You know, the state in Yemen has collapsed 
100 percent. Before the war, we used to have a stable state. 
Now we do not. So you can imagine how much the situation is 
horrible. Before the war, we started to discuss to have a law 
to stop the early marriage. You can now just imagine how much 
we are away far from this. It is just like a dream; it never 
happened. And the war is very masculine, yes. So women were 
just fighting for many years to be in the front in many jobs in 
Yemen, and they succeed to have a lot of success in this. And 
now all of this has destroyed as we are just starting from the 
scratch. And it is scary how much children, girls and boys, are 
not going to school now. So I am just worried about the future 
of Yemen. Many, many, I mean, thousands of schools have been 
destroyed, and millions of children are not going to school. So 
we are just going very steps--very huge steps to the back. 
Yemen was not that bad before.
    Mr. Trone. Ms. Zimmerman, your thoughts on that?
    Ms. Zimmerman. The challenge that I see is that we are 
focused on the very serious humanitarian catastrophe right now, 
which is revolving around the civilian casualties and the 
distribution of food and fuel, frankly. The challenge that 
Yemen will face is that it has now gone through 4 years of war, 
and it is not just coming out of this war, but even from the 
Arab Spring, children were not going to school. And so, when 
you look at the Yemeni population, about half of it is under 15 
years of age at this moment, and most of them have not had a 
regular education. Yemenis already suffered from a high level 
of illiteracy. It is driving them and setting up their 
opportunities such that when they come out of this, there will 
be a significant investment required from the international 
community to rebuild the institutions to allow Yemenis to start 
succeeding.
    Mr. Trone. Mr. Konyndyk, denial of humanitarian assistance 
is a violation of international humanitarian law. Under the 
U.S. Foreign Assistance Act, a government that prohibits or 
restricts the transport or delivery of U.S. foreign assistance 
faces penalties, including withholding of foreign assistance 
and withholding that under the Arms Export Control Act. Based 
on your observations over the past 4 years, is it your opinion 
the Government of Saudi Arabia and/or UAE have prohibited or 
otherwise restricted foreign assistance?
    Mr. Konyndyk. So, on the strict legal question, I am not a 
lawyer, and I would defer to the lawyers, but I can tell you, 
on the broader policy question, which I engaged with very 
closely during my several years in the administration, 
absolutely the Saudis and the Emiratis, principally the Saudis 
in that case, were obstructing humanitarian--legitimate 
humanitarian assistance from entering the country.
    And, you know, I think they have given large amounts to the 
United Nations, and they deserve some recognition for that, but 
no amount of aid that they give can keep pace with the damage 
they are doing.
    We saw repeatedly that it was very difficult for 
humanitarian groups to get aid into the country, and there were 
instances, for example, in 2015, when ships of World Food 
Program food were being prevented for weeks on end from being 
allowed to enter the country. I think what we typically saw was 
that eventually, in that sort of an instance where there was a 
specific item that they were blocking, they would eventually 
relent but only after pretty extensive pressure from the U.S. 
And that to me is a microcosm of I think a key takeaway from 
this entire process over the last 4 years, which is that when 
the Saudis are doing something we do not want them to do or the 
Emiratis are doing something we do not want them to do, asking 
them nicely while continuing to sell them arms has not yielded 
much progress. And the only times we have seen progress has 
been when, at a very high level, up to and including at times 
the President himself, when they put that request forward and 
make clear that it will have consequences for the U.S. 
bilateral relationship if it is ignored, then we see movement.
    Mr. Trone. Thank you.
    Mr. Deutch. Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    Violence and human rights atrocities, as you know, 
devastate Yemen. Iran, the world's largest State sponsor of 
terror, illegally supplies Houthi rebels with missiles, 
training, and support. These Houthi rebels terrorize civilians 
and American allies by attacking cities in Saudi Arabia, the 
UAE, and even civilian aircraft. Yemen also remains a focal 
point of U.S. counterterrorism. AQAP, al-Qaeda of the Arabian 
Peninsula, is one of the largest and most capable terror groups 
in the region. This is why I voted against the decision to try 
to remove U.S. Forces from the conflict. Frankly, it was 
dangerous and misguided, and abandoning this region will not 
end the humanitarian crisis. In fact, it will just make it 
worse. Without the United States, bad actors will continue to 
become more reckless and the tens of millions of Yemenis will 
continue to suffer without us. If Syria has shown us anything, 
it is that rogue countries like Russia and China, who have very 
little regard for peace, prosperity, or even human life, will 
fill the power vacuum that we create.
    So, Ms. Zimmerman, can you please elaborate on how the U.S. 
can better provide security assistance in the Arabian Peninsula 
while also holding our counterparts accountable for actions 
that we as Americans would not adhere to?
    Ms. Zimmerman. Thank you, Congressman.
    I think you have heard today that the U.S. has provided 
significant tactical training in how to limit civilian 
casualties and how to improve operations on the battlefield, 
and you can see that we have done it with Saudi Arabia, and 
then we have also done that through counterterrorism training 
and with cooperation with the United Arab Emirates. What has 
been missing from this piece is the actual strategic guidance 
and a nuanced approach that will lead our coalition partners to 
some sort of victory. And so they have applied the tactics that 
they have learned not perfectly against the strategy that is 
fundamentally flawed, and this is one of the reasons why I 
think that the U.S. should lean further in and provide what 
only America can provide, which is the expertise that we have 
in order to coalesce something that will deliver a better 
negotiated settlement than, frankly, what I can see on the 
table. I still do not see the path from Hudaydah to a national 
settlement, and, you know, that is the key piece that we need 
to start delivering.
    Mr. Reschenthaler. And what are your thoughts on if we 
continue to withdraw, with Russia and China filling that power 
vacuum? Do you want to elaborate on that?
    Ms. Zimmerman. Saudi Arabia and the UAE are one of the few 
partners we have that do not need our money, and if we were to 
stop selling munitions and weapons, the question is then, will 
they keep buying it? And I think the answer is yes. And when we 
provide it, we also provide it with significant support in 
terms of military training. It has not been completed in terms 
of our military training and the professional development, 
especially of the Saudi military, and withdrawing the provision 
of weapons will probably lead to the end of that sort of 
training, which means that we have gotten halfway there and 
then we lose that investment.
    Russia and China do not have that sort of predilection in 
terms of who they sell their weapons to and the end use of the 
weapon. And so we have seen cases where our partners have not 
used our weapons as we have desired. We should publicly hold 
them accountable, but we also need to recognize that, at the 
end of the day, there are other actors out there with weapons 
that are high end, and they are willing to sell, as well.
    Mr. Reschenthaler. Thanks, Ms. Zimmerman.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Deutch. Thank you, Mr. Reschenthaler.
    Mr. Vargas, you are recognized.
    Mr. Vargas. Thank you very much, Mr. Chairman.
    And thank you again, the witnesses, for being here today.
    Obviously, it is a hugely tragic humanitarian crisis. I 
have also had the opportunity to talk to David Beasley, 
Governor--former Governor from South Carolina, who tells me of 
the issues they have had at the port, and so I want to talk a 
little bit about that. Has the issues of the food coming in--I 
mean, I understood you saying that there could be some 
contraband on the ships, and because of that, they have stopped 
them, and maybe there is a lot more hassle, if you will, to get 
in. Has that been corrected, or how can that be corrected? I 
know that that is not the whole issue because there is just so 
many people that are on the point of starvation, but it does 
seem that so much of--you said 80, 90 percent--of the food goes 
through there. How is that being corrected? Who would like to 
handle that? Go ahead.
    Mr. Konyndyk. I can take a first crack at that, and I am 
sure others have thoughts.
    Mr. Vargas. Sure.
    Mr. Konyndyk. So when I was at AID, that was one of our 
major preoccupations, protecting that lifeline through Hudaydah 
because it is where most of the country's food comes from. And, 
you know, we saw two important dynamics that were concerning. 
One was obviously the Saudi naval blockade, which was 
preventing a lot of legitimate material from getting in out of 
fear, as you said, that there may be contraband upon some of 
the ships.
    We also saw Iran playing games. And Iran at one point sent 
a what they called an aid ship, and I think that ship probably 
did only have aid on it, but there was no way to know that, and 
they were doing that to test the Saudi blockade, and they were 
in effect misusing using aid, as well.
    So we did two things. First, we worked with the U.N. to set 
up an arrangement where all aid from Iran and other States 
would go through the U.N. and be validated by them and 
delivered by them rather than directly by the State. So that 
ensured that the contents of the aid were legitimate and not 
being, you know, no contraband was on board.
    And then we set up something called the U.N. Verification 
and Inspection Mechanism for all commercial shipping, so kind 
of a counterpart for commercial to what existed for the aid. 
And that was a U.N. process for similarly verifying and 
validating what was on board ships to avoid contraband.
    The concern has been that the Saudis have not--Saudis and 
Emiratis have not been great about respecting and working 
through on them. And I think that gets to the underlying issue, 
which is that the purpose of the blockade is not merely to 
prevent contraband; it is also to economically hurt the country 
with cover of this contraband argument.
    Mr. Vargas. So that was going to be my question because it 
seems that there is the whole issue of, you know, the 
contraband, but more than that, they were using it almost as a 
way to starve the country.
    Mr. Konyndyk. It was an excuse.
    Mr. Vargas. It was an excuse. OK. Has that been corrected 
at all? What can we do to change that reality again?
    Mr. Konyndyk. It has not--it is a problem that requires 
constant management. Others may want to weigh in.
    Dr. Rand. I would just add that I think these two questions 
actually relate to each other. Congressman, your question 
assumed a bit of a binary between either withdrawing completely 
from our relationship with Saudi Arabia and stopping to limit 
U.S. support for the coalition for the war in Yemen.
    The United States is actively engaged to support the 
defense of Saudi Arabia day in and day out, aside from 
operational DOD and arms sales support for the war in Yemen, 
and this is a great example, right? The United States will 
continue to defend Saudi Arabia from contraband material going 
through the Red Sea Port through the activities that my 
colleague just described and many, many other naval and 
maritime activities.
    Mr. Vargas. I am going to reclaim my time because you are 
actually not focusing on my question. My question was not about 
Saudi Arabia. They are doing quite fine. My question was more 
about Yemen and how are we going to help the Yemeni people.
    So, again, I want to focus how can we get more food in 
there. I know one of the things that we can do also is try to 
figure out how to help their currency. I mean, their currency 
in free fall creates a real problem when there is, in fact, 
imported food that people would be able to buy if it was not 
for the depreciation of their currency.
    Ms. Almutawakel. This is not only your question. I have 
heard this question from more than one: How can we just help 
the humanitarian access? We are in the Congress, and just it is 
so weird for me to ask this question rather than asking how can 
we stop the war in Yemen. Humanitarian access is a very small 
issue in Yemen, and it is not even the only thing that 
causesstarvation in Yemen. For example, millions of Yemenis are 
not receiving their salaries for years now. Those who are 
living under the control of Houthis, which is most of the 
population of Yemen, Houthis they do not consider themselves 
responsible to obey salaries, and the Hadi government, the 
coalition, are not paying salaries for people just because they 
are living in the areas that is controlled by Houthis. That is 
one of the main reasons that causes starvation in Yemen, more 
than the access of humanitarian aid.
    So the issue in Yemen is not an issue of how to flow the 
humanitarian access. It is much more than this, and if there is 
a humanitarian crisis here and you have a very big influence to 
just to stop the crisis, just like the symbol, then to stop it 
by we have to stop it by to stop the war, not to just solve the 
problem of how to get the food in.
    Humanitarian NGO's can get--can solve this problem, and 
they are trying to, and it is not your question. It is an----
    Mr. Vargas. No, I know. My time is the expired, but thank 
you for your answer. I appreciate it. Thank you.
    Thank you, Mr. Chair.
    Mr. Deutch. Thank you, Mr. Vargas.
    Mr. Sherman, you are recognized.
    Mr. Sherman. If our goal was just to feel better and more 
moral, we would get ourselves completely out of Yemen in all 
respects. It is unlikely that Yemen will be a place that anyone 
says: That is where great things are happening, and America is 
a great country to be a part of that.
    But the fact is that washing our hands of the issue is not 
necessarily the best thing we could do for the Yemeni people.
    I know that air power has been criticized here. I point out 
as the country that has the leading air power in the world, we 
should defend the rules of engagement and the laws of war, 
which make it plain that if you are hitting strategic targets 
for strategic reasons and, in that context, that you are trying 
to avoid civilian casualties, then that is legal. If we then 
take the position that you cannot use air power if you have any 
adverse effect on the civilians, then air power is illegal, and 
it puts us in a much worse strategic position.
    One way this war could end is we could change sides or 
whatever and join the Houthi. And how bad would the Houthi be 
if they just took over the country? They have a record of 
enforced disappearances, you know, children soldiers. The U.N. 
has said they have committed war crimes, but if they, Dr. Rand, 
if the Houthis just swept their opponents from the battlefield, 
would they engage in reprisals? Would they kill civilians? Or I 
do not expect them to provide good governance, but would the 
people of Yemen be better if, 6 months from now, the Houthis 
just controlled the whole country?
    Dr. Rand. Thanks, Congressman. The Houthis do control 
around 75, 80 percent of the population. So this is not a 
hypothetical.
    Mr. Sherman. Right. Well, it is in some ways. They may be 
holding themselves back saying: We want to restrain ourselves 
and not kill 50,000, 100,000 civilians until we win the war. 
Then, once we win the war, then we do not have to worry as much 
about our world image, and then we can kill our enemies.
    You know, Lenin did not kill all his enemies in 1917. He 
waited until more like 1920, 1925. So, if the Houthis really 
had freedom of action, what would they do?
    Ms. Almutawakel. I want to invite you to visit Mwatana's 
website just to see how much Houthis are already killing 
civilians. They are not holding their thumbs back. They are 
engaged in many serious violations, indiscriminate shelling, 
child soldiers, torture, enforced disappearance, a lot. They 
are doing whatever they can do in the areas that they are 
controlling, but who said that the scenario of stopping the war 
that the Houthis control the areas? How this idea came up?
    So the idea for the political agreement is to just end, to 
just replace all armed groups to a state, the state of rule of 
law----
    Mr. Sherman. Well, obviously, if we can create peace and 
compromise, that is the best possible outcome. But we have been 
trying to do that for a long time.
    I will ask the panel: How optimistic are you that a 
peaceful solution will be reached among the parties?
    Dr. Rand. Congressman, you know, in 2015 and in 2016, the 
U.S. Government was focused very, very directly on reaching a 
cease-fire----
    Mr. Sherman. Right.
    Ms. Rand [continuing]. In Yemen, and to be honest, in the 
past 2 years, that has not been a focus of U.S. foreign policy. 
So what we are advocating here is elevating this issue as a 
diplomatic priority given the momentum in Sweden and pushing 
the Trump administration to really make compromise and 
political negotiation the end goal as opposed to some of the 
parties maybe preferred strategy of escalation. So that is the 
recommendation here.
    Mr. Konyndyk. And, Congressman, I think, to hit on a couple 
of your other points, I do not think anyone is advocating for 
the U.S. pulling out or for the Houthis winning or just----
    Mr. Sherman. Well, when you say ``pulling out,'' nobody is 
advocating for us to pull out diplomatically. And, in fact, 
there is a consensus on the panel that we should have a higher 
level diplomat involved in these issues, but there are a lot of 
folks urging us to pull out militarily.
    Mr. Konyndyk. Yes, including me. And the reason for that 
is, you know, in your comment, you said: Would this have 
implications for U.S. use of air power?
    I think if the Saudis were anywhere close to the quality of 
targeting and the quality of respect for international law of 
armed conflict that the U.S. military has, there would be far 
less of a problem.
    Mr. Sherman. We are doing a much better job now if you 
compare what the Saudis are doing to our approach in World War 
II. I do not know how historians would rate us, but I yield 
back.
    Mr. Deutch. Thank you.
    Mr. Lieu, you are recognized.
    Mr. Lieu. Thank you.
    Thank you, Chairman Deutch, for calling this hearing on 
Yemen, and I appreciate your doing so, and the message we are 
sending is that we are not going to let this issue go.
    So, if you are a Saudi Arabia or UAE or the Trump 
administration, we are going to keep highlighting it. We are 
going to keep exposing your war crimes and the famine that you 
are causing in Yemen. I do note that, as the witnesses had 
testified, a new report recently came out with nearly a 
thousand people killed by U.S. munitions and over 120 children 
killed. I do have a question about that report. So, Ms. 
Almutawakel, was that from airstrikes from a Saudi-led 
coalition that did not also include airstrikes from, let's say, 
civilian drones and others with U.S. intel? What was the nature 
of that casualty count?
    Ms. Almutawakel. No, these ones, we have reports about 
drones, and there are incidents regarding the drones. And there 
are civilians who have been killed and injured because of 
drones in 2017 and 2018.
    Mr. Lieu. Is that in your report or a separate report?
    Ms. Almutawakel. No, separate. This one, in this report, it 
is only the Saudi and Emirati airstrikes.
    Mr. Lieu. Thank you. And are you aware of any Saudi or UAE 
officials being held accountable for the killing of civilians 
through these airstrikes?
    Ms. Almutawakel. This is a dream.
    Mr. Lieu. So the answer is no. And as you had testified 
earlier, as Congressman Malinowski noted, it appears that many 
of these airstrikes are not because they are trying to hit a 
moving Houthi target and missed; it is that they are 
deliberately trying to target the actual places to hit that 
have lots of civilians. Is that correct?
    Ms. Almutawakel. What is really strange about the incidents 
that killed and injured civilians in Yemen is it is very 
preventable. Many of the cases that we have documented, there 
is not even a military target. People themselves were asking, 
why we were targeted? It is even strange. It is just--that is 
why it is not a matter of training. It is a matter of 
accountability. They do not care. If they cared, they can just 
make it much better, at least not to embarrass their allies.
    Mr. Lieu. Thank you.
    I actually think it is worse than that they do not care. It 
does appear to me that they are intentionally hitting 
civilians. So, as you know, during the Obama Administration, 
Saudi jets flew and hit a funeral that had a lot of civilians, 
injuring and killing hundreds, and then they came back around 
and struck the very same precise location again. So my view is 
they are deliberately targeting civilians. I think these are 
war crimes.
    And my question to Dr. Rand is, when you have civilians in 
Yemen watching a U.S.-supported coalition killing a lot of 
civilians, would not that fuel what terrorists are trying to do 
in recruiting members and causing more people to hate the 
United States as well as the British, who are also providing 
these munitions?
    Dr. Rand. Yes. As my colleague said earlier today----
    Mr. Deutch. Turn on your mike, please.
    Dr. Rand. Thank you, Congressman. As my colleague had said 
earlier in the hearing, I think if you are sitting in Yemen, 
none of the outside powers look particularly appealing at this 
point, and I think there is a lot of blaming that is going on. 
But yes, this is so directly and obviously a recruiting vehicle 
for radicalism, extremism, and the next generation of AQAP in 
Yemen. And behind every sortie is clearly the image of a U.S.-
sold weapon, a U.S.-sold airplane, and the maintenance, and the 
other support services. So there is no doubt there is a real, 
real risk here of generating greater terrorist threat in Yemen 
of the like AQAP or a future generation of radicalization.
    Mr. Lieu. And then just as a question for anyone on the 
panel: It was reported today that the Trump administration is 
reversing an executive order that would essentially now hide 
the number of civilian deaths being caused from drone strikes 
from our intelligence agencies. How many of you think that is a 
good idea? OK. No one does.
    So what is your view of what the harm would be if we hide 
that information from Congress and the American people?
    Dr. Rand. I am sure my colleagues have ideas and have 
responses as well, but just in brief, the idea of the 2016 
executive order was in keeping with democratic principles of 
transparency and clear communication to be open about the 
civilian casualties in line with current operational procedure 
at DOD. That was the goal of the 2016 policy, and revoking it 
sends a signal to the American public and to, more importantly 
probably, allies, friends, and enemies around the world that 
the United States will be hiding its civilian casualties.
    I would also say this is a global executive order. It is 
not related to Yemen, but it is related to today's hearing 
because one of the original purposes of the 2016 executive 
order was to send the signal to U.S. allies of how America 
handles its own civilian casualties and wartime operation, to 
send the signal that the U.S. is open, the U.S. is transparent, 
the U.S. is willing to investigate ourselves, which was what we 
were urging the coalition to do and continue to urge it. So 
there was a diplomatic value to this executive order in 2016, 
and revoking it is stepping back and saying that we are not 
going to expect allies and partners of the United States to 
adhere to the same standards of accountability of the U.S. 
military.
    Mr. Lieu. Thank you.
    I yield back.
    Mr. Deutch. Thank you very much, Mr. Lieu. This was an 
excellent hearing. I am really grateful to all of the 
witnesses.
    Yemen is a humanitarian crisis, and American leadership is 
necessary to ensure food is delivered and that we stop the 
spread of the disease, but ultimately a political solution is 
necessary to end the war, and American leverage is what can be 
used to accomplish that.
    Again, I thank the witnesses.
    Ms. Almutawakel, your voice here with us today is so 
critically important to our decisionmaking going forward. I 
would just ask that, as you return to Yemen, that you make sure 
that you take with you the commitment by this committee and by 
this Congress to continue to focus on the crisis in Yemen and 
the war and work to see that it ends.
    And, with that, this committee is adjourned.
    [The information referred to follows:]
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


                        STATEMENT FOR THE RECORD
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        


            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           



                                 <all>
</pre></body></html>
